                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Midwest Region




             Audit Report

Animal and Plant Health Inspection Service
National Cooperative State/Federal Bovine
    Tuberculosis Eradication Program




                            Report No. 33099-0005-Ch
                                          APRIL 2005
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL
                                         Washington D.C. 20250



April 20, 2005



REPLY TO
ATTN OF:         33099-0005-Ch

SUBJECT:         National Cooperative State/Federal Bovine Tuberculosis Eradication Program

TO:              Dr. W. Ron DeHaven
                 Administrator
                 Animal and Plant Health Inspection Service

ATTN:            William J. Hudnall
                 Deputy Administrator
                 Marketing and Regulatory Programs Business Services

FROM:            Robert W. Young                 /s/
                 Assistant Inspector General
                   for Audit


This report presents the results of our audit of the National Cooperative State/Federal Bovine
Tuberculosis Eradication Program in Michigan. Your response to the draft report, dated March 31, 2005,
is included as Exhibit B, with excerpts and the Office of Inspector General’s position incorporated into
the related sections of the report.

We agree with your management decision for Recommendation 1. Please follow your agency’s internal
procedures in forwarding final action to the Office of the Chief Financial Officer. Management decisions
for the remaining recommendations can be reached once you have provided the additional information
outlined in the report sections OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing the
corrective action taken or planned and the timeframes for implementation for Recommendations 2, 3,
and 4. Please note that the regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance.

We appreciate the cooperation and assistance provided by your staff during this audit.
Executive Summary
National Cooperative State/Federal Bovine Tuberculosis Eradication Program
Audit Report No. 33099-0005-Ch

Results in Brief   This report presents the results of our audit of the National Cooperative State
                   and Federal Bovine Tuberculosis Eradication Program (BTEP) in Michigan.
                   The objectives of our audit were to identify and assess the Animal and Plant
                   Health Inspection Service’s (APHIS) internal controls related to the BTEP,
                   and to determine whether the established protocols were followed. We
                   selected Michigan because it had the highest prevalence of bovine tuberculosis
                   (TB) in the United States. Our audit disclosed that the Michigan Department
                   of Agriculture (MDA) generally followed established protocols and had made
                   improvements to its controls over BTEP, particularly in the last two years.
                   However we identified weaknesses in controls over accountability of animals
                   within the infected zone. These weaknesses may negatively impact the
                   effectiveness of Michigan’s BTEP, and inhibit efforts to eradicate bovine TB.

                   Under APHIS’ Cooperative State/Federal Tuberculosis Eradication Program,
                   bovine TB has been nearly eradicated from much of the United States.
                   However, scientific analysis has directly linked the spread of bovine TB from
                   wildlife to cattle. To respond to this threat, the Secretary of Agriculture
                   declared an emergency in October 2000, which authorized supplemental
                   funding and resources to help address the problem.

                   Over the past few years, the BTEP in Michigan has progressively improved.
                   For instance, APHIS and the MDA determined that the disease was contained
                   in the northern half of Michigan’s lower peninsula, which MDA identified as
                   “the infected zone”. This created a unique split-State situation, which helped
                   maximize resources by focusing eradication efforts on the infected zone.
                   Then, within this infected zone, they instituted more restrictive controls over
                   animal movements and established annual whole-herd testing requirements of
                   all herds. In addition, the remainder of the State is subjected to on-farm
                   tuberculin testing based upon a statistical sampling plan.

                   These improvements were notable, however, we identified weaknesses in
                   controls over the testing, as well as documenting the movement and
                   depopulation of animals within the infected zone. We found that APHIS and
                   MDA could not provide documentary evidence for 113 of 645 animals from
                   four of eight sampled TB-infected herds that were required to be depopulated
                   or remain on the farm under quarantine. In a separate analysis of MDA’s
                   annual testing of herds in the infected zone, we found that APHIS and MDA
                   could not provide documentation to account for the disposition of 105 of
                   287 animals in four different herds. These animals were tested in one year,
                   but were not available for testing in the subsequent year.

USDA/OIG-A/33099-0005-Ch                                                                   Page i
                      We also found that APHIS policy led MDA to release two infected herds from
                      quarantine after preliminary lab test results, but before completing the final
                      analyses, the lab culture. As a result, 22 animals were moved from an infected
                      herd to a farm in Michigan’s TB-free zone. These animals were subsequently
                      depopulated.

                      In addition, we found that even though bovine TB in wildlife has been directly
                      linked to outbreaks in livestock, APHIS’ classification system for bovine TB
                      State status does not incorporate the high levels of the disease in Michigan’s
                      wildlife.

Recommendations
In Brief        We are recommending that APHIS enhance its procedures to include:
                (1) verifying that all animals in infected herds were either depopulated or
                remained on the farm under a herd plan; and (2) reconciling herd inventories
                to account for missing animals during annual testing in Michigan’s infected
                zone. We are also recommending that APHIS revise its policy to maintain
                quarantines on herds in the infected zone that have positive responses to on-
                farm tuberculin tests, until the lab culture results are known. Finally, we are
                recommending that APHIS revise its bovine TB classification standards to
                include measurements of bovine TB in wildlife.

                       Agency Response

                       In its response dated March 31, 2005, APHIS agreed with each of our
                       recommendations. We have incorporated applicable portions of APHIS’
                       response along with our position, in the Findings and Recommendations
                       section of the report. The agency’s response is included in its entirety as
                       Exhibit B of the report.

                       OIG Position

                       We agree with APHIS’ proposed corrective actions and have reached
                       management decision on Recommendation No. 1. To reach management
                       decision for Recommendations Nos. 2 and 3, APHIS needs to provide us with
                       timeframes to establish and implement procedures. To reach management
                       decision for Recommendation No. 4, APHIS needs to provide us with its
                       plan, including timeframes, for revising the classification standards for
                       Michigan’s infected zone to include bovine TB in wildlife as a status-
                       determining factor.




USDA/OIG-A/33099-0005-Ch                                                                     Page ii
Abbreviations Used in This Report


APHIS               Animal and Plant Health Inspection Service
BTEP                Bovine Tuberculosis Eradication Program
CFT                 Caudal Fold Test
DTE                 Designated Tuberculosis Epidemiologist
FAIR                Farm Animal Identification Record
FSIS                Food Safety and Inspection Service
ID                  Identification
MDA                 Michigan Department of Agriculture
MSU                 Michigan State University
NVSL                National Veterinary Services Laboratory
OCFO                Office of the Chief Financial Officer
OIG                 Office of Inspector General
TB                  Tuberculosis
UM&R                Uniform Methods and Rules
USDA                United States Department of Agriculture
VS                  APHIS Veterinary Services




USDA/OIG-A/33099-0005-Ch                                         Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1: Controls Over Tuberculosis-Infected Zone .................................................................. 5

        Finding 1             Controls Over the Disposition of Infected Herds Need Strengthening ................... 5
                                   Recommendation 1 .......................................................................................... 8
        Finding 2             All Animals Are Not Accounted for During the Annual Testing Process in
                              the Infected Zone..................................................................................................... 8
                                   Recommendation 2 ........................................................................................ 10
        Finding 3             Herd Quarantines Were Released Prior to Completing Lab Analysis .................. 10
                                   Recommendation 3 ........................................................................................ 12

    Section 2: Bovine Tuberculosis in Wildlife .................................................................................... 13

        Finding 4             Prevalence of Bovine Tuberculosis in Wildlife Is Not Incorporated in
                              APHIS’ Classification Standards .......................................................................... 13
                                  Recommendation 4 ........................................................................................ 15

Scope and Methodology........................................................................................................................ 16

Exhibit A – Infected (Modified Accredited) Zone, as of April 19, 2004 .......................................... 18
Exhibit B – Agency Response to the Draft Report............................................................................. 19




USDA/OIG-A/33099-0005-Ch                                                                                                                   Page iv
Background and Objectives
Background                     Bovine tuberculosis (TB) is a contagious disease to animals and humans that
                               has caused more deaths among United States farm animals in the early part of
                               the 20th century than all other infectious diseases combined. Under APHIS’
                               Cooperative State/Federal Tuberculosis Eradication Program (BTEP), bovine
                               TB has been nearly eradicated from much of the United States. However,
                               when scientific analysis identified significant TB threats that could lead to a
                               spread of this disease, the Secretary of Agriculture signed a declaration of
                               emergency in October 2000. This declaration authorized the transfer of
                               $44 million in as the initial payment of a multi-year effort to expand the TB
                               eradication program in the United States.

                               APHIS-Veterinary Services (VS) is responsible for administering the BTEP,
                               which it accomplishes by working cooperatively with States and by entering
                               into a Memorandum of Understanding with each State. APHIS has
                               established rules1 and regulations2 that must be followed by States.
                               Regulations note that a State must have the legal and financial resources to
                               implement and enforce a TB eradication program, and that a State or zone
                               must maintain clinical and epidemiologic surveillance of animal species at
                               risk of tuberculosis.

                               Bovine TB surveillance is accomplished through slaughter monitoring and
                               on-farm tuberculin testing. In the 46 TB-free States surveillance is primarily
                               through slaughter monitoring, with only a limited amount of on-farm testing.

                               Slaughter Surveillance

                               Slaughter surveillance is performed through a Memorandum of
                               Understanding between APHIS and the Food Safety and Inspection Service
                               (FSIS). Under the agreement, FSIS inspectors at slaughter facilities inspect
                               cattle carcasses, collect and submit suspected TB lesions, along with the
                               required APHIS documentation, to the National Veterinary Services
                               Laboratory in Ames, Iowa for testing. According to the National Staff
                               Veterinarian responsible for the BTEP, the primary surveillance for TB in
                               cattle depends on APHIS veterinarians and FSIS inspectors. When slaughter
                               surveillance discovers the presence of bovine TB, APHIS’ animal health
                               personnel trace the animal to the herd of origin, restrict movement, and test
                               the herd.




1
    Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999.
2
    Title 9, Code of Federal Regulations (CFR), Part 77.

USDA/OIG-A/33099-0005-Ch                                                                               Page 1
                             On-Farm Tuberculin Testing

                             APHIS supplements slaughter surveillance with on-farm tuberculin testing,
                             on a limited basis in the TB-free States, and more significantly in TB-infected
                             States. APHIS has established procedures3 for performing on-farm tuberculin
                             testing. The herd is placed under quarantine during the entire testing process.
                             The only movement of animals allowed while a herd is under quarantine is
                             directly to a slaughter establishment, and under a permit issued by a State or
                             Federal representative.4 The initial diagnostic test is the caudal-fold test
                             (CFT), which involves injecting a tuberculin into the tail of the animal. Any
                             animals with a response to the CFT test are classified as suspects. All
                             suspects receive a supplemental test, such as a comparative cervical test,
                             which consists of two tuberculin injections in the neck area. In Michigan,
                             animals with a positive reaction to the supplemental test are sent to a
                             laboratory at Michigan State University (MSU) for necropsy (animal
                             autopsy) and histopathology test.

                             At the MSU lab, the necropsy looks for lesions as evidence of TB, and
                             histopathology examines animal lesions/tissue for TB bacteria. If the
                             necropsy and histopathology show no evidence of bovine TB, the herd is
                             released from quarantine. As part of the examination process, MSU collects
                             and submits suspected TB lesions and tissue samples to the National
                             Veterinary Services Laboratory in Ames, Iowa, for the final and definitive
                             test, a laboratory culture. The culture takes approximately 60 days to process.
                             If the culture discloses that the herd is infected, the agency and the producer
                             jointly decide to either depopulate the entire herd or develop an individual
                             herd plan for test and removal. Infected animal(s) are also traced to the herds
                             of origin, and testing is performed on those herds.

                             State TB Status

                             States submit annual reports to APHIS showing the results of on-farm testing
                             and slaughter surveillance conducted. APHIS requires this surveillance to be
                             done at a rate that allows detection of TB in the overall population of
                             livestock at a 2-percent prevalence level with 95-percent confidence.5
                             Approval and maintenance of a State’s status requires an annual review and
                             approval by the APHIS Administrator.

                             As listed on the following page, APHIS has established five bovine TB
                             classifications for States and zones, based on the percentage of prevalence (or
                             number of infected herds) found in that area.6 The classification of a State or


3
  Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999, Part II.
4
  Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999, Part III.
5
  Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999, Part VII.B.1.
6
  Title 9, Code of Federal Regulations (CFR), Part 77.
USDA/OIG-A/33099-0005-Ch                                                                              Page 2
                   a particular zone within a State determines the TB testing requirements that
                   must be met before animals can be moved out of the affected area.

                   States are currently impacted by the first three TB classifications. Testing and
                   movement restrictions increase with each subsequent classification.
                   Accredited free areas are those where no TB problem has been identified, and
                   movement of livestock from these areas is unrestricted. A modified
                   accredited advanced State/zone is one that has identified the disease in less
                   than 0.01 percent of its herds, or in 1 to 3 herds in States/zones with fewer
                   than 30,000 herds. In a modified accredited advanced State/zone, APHIS
                   only requires a negative TB test prior to interstate or interzone movement of
                   breeding animals. The modified accredited status is warranted if TB is found
                   in less than 0.1 percent herds, or a maximum of 10 herds in a States/zone
                   with fewer than 10,000 herds. In a modified accredited zone, APHIS requires
                   a negative TB test for the entire herd of origin prior to the movement of
                   breeding animals, and a negative TB test prior to the movement of non-
                   breeding animals. The following list represents APHIS’ TB classifications:

                      1.   Accredited Free,
                      2.   Modified Accredited Advanced,
                      3.   Modified Accredited,
                      4.   Accreditation Preparatory, and
                      5.   Non-Accredited.

                   Currently 46 States are classified as accredited free. Effective April 19,
                   2004, Michigan became the only State with two zones: modified accredited
                   advanced and modified accredited. California, New Mexico, and Texas are
                   classified as modified accredited advanced because they have reported a
                   lower number of herds infected with bovine TB than Michigan.

                   Michigan Evolution of Testing, Permitting, and Movement Requirements

                   On June 28, 2000, Michigan’s status became modified accredited, due to the
                   prevalence level of the TB infection in the State. The Michigan Department
                   of Agriculture (MDA), working closely with the APHIS area office,
                   determined that the disease was contained to the northeast corner of the State.
                   In order to maximize its resources, in March 2002, MDA established three
                   zones for identification, on-farm tuberculin testing and movement
                   requirements. These included four counties in the infected zone that required
                   annual testing, six counties in the surveillance zone that required biennial
                   testing, and the remaining counties (disease free zone) that passed one whole-
                   herd test by December 31, 2003. At this time, movement permits were
                   required to move livestock from any premises in the infected zone, except if
                   the animals were moving to slaughter.



USDA/OIG-A/33099-0005-Ch                                                                    Page 3
                             In October 2002, MDA implemented a statistically-based random sampling
                             surveillance plan, to test for bovine TB in Michigan’s modified accredited
                             advanced zone (disease free zone), which encompasses the majority of the
                             State. Under this plan, MDA has initiated whole herd bovine TB testing on a
                             random sample of 1,800 cattle herds in this zone every 2 years. The
                             computerized statistical sample is generated by Michigan State University
                             from a database of over 10,000 known herds.

                             Due to the detection and spread of bovine TB to a northwestern county in
                             2004, three additional counties were added to the infected zone. On April 19,
                             2004, APHIS amended its bovine TB regulations7 to establish a split-State
                             status, which included a 13-county modified accredited zone (infected zone)
                             and a modified accredited advanced zone for the remainder of the State (see
                             Exhibit A).

                             As of June 1, 2004, MDA required all herds in the 13-county infected zone to
                             complete whole-herd testing within a 9 to 15 month range following the
                             anniversary date of the initial test. MDA also required that permits be
                             obtained for any movement of cattle in the infected zone, even if going to
                             slaughter. Also, as of June 1, 2004, MDA required the use of radio frequency
                             identification (ID) eartags for all cattle in the infected zone. Approximately
                             95 percent of Michigan cattle are slaughtered at seven facilities that are
                             equipped with electronic ID readers. Therefore, when animals from the
                             infected zone arrive at these plants, the ID’s are automatically scanned into
                             the Farm Animal Identification Record (FAIR) database, where the animal
                             record is updated to show the status of the animal. MDA manually updates
                             FAIR for the remaining 5 percent that are slaughtered at smaller facilities or
                             on the farm.

Objectives                   The objectives of the audit were to identify and assess APHIS’ internal
                             controls related to the Bovine Tuberculosis Eradication Program in Michigan,
                             and to determine whether the established safeguards and protocols were
                             followed in Michigan.




7
 Federal Register Vol. 69, No. 75: Tuberculosis in Cattle and Bison; State and Zone Designations; Michigan, dated
April 19, 2004.

USDA/OIG-A/33099-0005-Ch                                                                                        Page 4
Findings and Recommendations
Section 1: Controls Over Tuberculosis-Infected Zone

                                Although we noted significant improvements over the past two years, we
                                found weaknesses in controls over the testing, movement, and depopulation
                                of animals within Michigan’s infected zone. We performed a test on a sample
                                of TB-infected herds and determined that neither APHIS nor MDA could
                                account for the disposition of 113 of 645 animals in four of eight herds. In a
                                separate analysis of annual testing in Michigan’s infected zone, we selected a
                                sample of four herds and found that MDA could not provide documentation
                                to account for 105 of 287 animals in these herds. We also found that MDA, in
                                following APHIS policy, released infected herds from quarantine before
                                completing the definitive laboratory analysis, which resulted in the
                                movement of 22 animals from an infected herd to a farm outside the infected
                                zone.




Finding 1                       Controls Over the Disposition of Infected Herds Need
                                Strengthening

                                We reviewed 8 of the 32 herds that were infected with bovine TB between
                                1999 and 2004, and found that neither APHIS nor MDA could account for
                                the disposition of all animals in four of the eight herds. This occurred because
                                APHIS procedures did not require verifying the disposition of all animals
                                from infected herds. As a result, APHIS and MDA could not document that
                                113 of the 645 animals from the infected herds were depopulated or remained
                                on the farm after testing TB-free.

                                APHIS rules state that herds with animal(s) testing positive for bovine TB
                                shall: (1) be depopulated; or (2) remain under quarantine under an individual
                                herd plan. All animals moved from the farm shall be shipped directly to
                                slaughter and shall be accompanied by a slaughter permit issued by a State or
                                Federal representative.8 According to the APHIS Designated Tuberculosis
                                Epidemiologist (DTE), Michigan’s depopulation process for an infected herd
                                consists of sending all suspects (cattle testing positive to an on-farm
                                tuberculin test) to the Michigan State University laboratory for necropsy and
                                histopathology, and all animals testing negative for TB to slaughter facilities.

                                A herd plan is a written disease management plan approved by State animal
                                health officials and APHIS Area Veterinarian-In-Charge.9 The herd plan

8
    Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999, Part III, Section I.3.
9
    Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 1999, Part I, “Individual herd plan.”
USDA/OIG-A/33099-0005-Ch                                                                                           Page 5
                                should include appropriate herd test frequencies, tests to be employed and
                                any additional disease management practices deemed necessary to eradicate
                                the disease from the herd in an efficient and effective manner. Under an
                                individual herd plan animals testing positive to the TB test are depopulated,
                                and animals testing negative are required to remain on the farm for a
                                minimum of three years, passing a series of tuberculin tests, until it is
                                determined that the herd is TB-free. During this process, the farmer also has
                                the option to obtain a permit to send negative testing animals to slaughter.

                                For each of the eight TB-infected herds that we reviewed, we requested that
                                the APHIS area office provide documentation showing that the animals were
                                either depopulated or remained on the farm under an individual herd plan.
                                The APHIS DTE provided us with copies of the movement permits (VS
                                Form 1-27), test charts, orders of destruction, quarantine notices, and
                                quarantine releases. APHIS requires all movement of animals from infected
                                herds to be under permit. The permit is to be signed and dated by the
                                veterinarian and the herd owner or shipper, then shipped to the lab or
                                slaughter facility, where it is to be signed and dated by a representative from
                                the facility and returned to MDA and the APHIS area office.

                                We found that APHIS and MDA could not provide documentation to account
                                for the disposition of 113 of 645 animals in four of the eight herds in our
                                review. APHIS and MDA officials stated that they had not established
                                procedures to verify the disposition of animals from infected herds with
                                signed movement permits from slaughter facilities and laboratories; and test
                                charts over the duration of an individual herd plan.

                                The following table depicts our analysis:

                                                                                    REMAINING
                                                                                     ON FARM
                         SAMPLE         DATE          HERD                          UNDER HERD   UNACCOUNTED
                         NUMBER       INFECTED        SIZE      DEPOPULATED            PLAN       FOR ANIMALS

                            1           12/28/98        18              18
                            2            2/4/00        168              30                73          65
                            3           9/19/00        124              35                66          23
                            4            5/7/01         91              91
                            5           7/17/02        103             103
                            6           1/21/03         45              22                            23
                            7           5/23/03         73              71                            2
                            8           11/10/03        23              23
                         TOTALS                        645             393               139         11310




10
     The 113 animals without evidence of disposition were from 4 herds totaling 410 animals.
USDA/OIG-A/33099-0005-Ch                                                                                     Page 6
                       Infected Herds Under Herd Plans

                       Two of the eight herds were under herd plans for testing and removing
                       animals (sample numbers 2 and 3 from the table above). For these two
                       herds, we requested all movement permits (VS Form 1-27) issued after
                       the quarantine to identify the animals that were depopulated, and the test
                       charts (VS Form 6-22) at the time of the quarantine release to determine
                       the animals remaining on the farm. We compared the animal ID
                       numbers on the herd plan listing to those on the movement permits and
                       test charts, and found that MDA and the APHIS area office were unable
                       to provide evidence of the disposition of 88 of 292 animals from these
                       two herds. Under a herd plan, the herd remains under quarantine and
                       must pass three annual whole herd tuberculin tests before it is considered
                       TB-free. During the plan, all suspects are depopulated. Animals testing
                       negative can also be moved to slaughter, but only under permit. Because
                       APHIS and MDA do not reconcile animal inventories during and at the
                       conclusion of a herd plan, they cannot provide documentation to verify
                       the disposition of 88 animals from these two infected herds.

                       Infected Herds to be Depopulated

                       For the six infected herds that were to be depopulated, we requested all
                       movement permits (VS Form 1-27) issued after the quarantine to identify
                       the animals that were depopulated. We compared the animals on the test
                       chart with those that were listed on the movement permits to determine if
                       all of the animals from the infected herds were depopulated. We found
                       that MDA and the APHIS area office were unable to provide evidence
                       that 25 of 118 animals in 2 infected herds (sample numbers 6 and 7 from
                       the table on the previous page) were depopulated. For sample number 6,
                       we obtained a permit for movement of 23 animals to slaughter; however,
                       it was not signed and dated at the recipient establishment. For sample
                       number 7, MDA and APHIS did not have any evidence of the
                       depopulation of 2 of the 73 animals from the infected herd.

                   The APHIS DTE stated that they did not always follow up with the slaughter
                   facilities when the facilities did not return signed movement permits. He
                   further stated that APHIS ensured that the animals from infected herds were
                   depopulated since an APHIS veterinarian verifies that all animals from the
                   infected herd are loaded onto the truck, the truck is sealed, and the “slaughter
                   only” movement permit is signed and dated. However, in these situations,
                   neither APHIS nor MDA were able to provide documentation to verify that
                   these animals reached the appropriate destination. An APHIS National
                   official stated that the area office should have maintained proof of slaughter
                   documentation and verified the disposition of all animals from infected herds.
                   This APHIS Official also noted their procedures need to be clarified to better
                   reflect these requirements.
USDA/OIG-A/33099-0005-Ch                                                                    Page 7
                   As a result of our reviews, as described in the above sections, we concluded
                   that APHIS had no assurance that 113 of 645 animals (18 percent) in eight
                   TB-infected herds were depopulated or remained on the farm after testing
                   negative for TB.

Recommendation 1

                   Enhance procedures to include: (1) verifying depopulated animals with
                   movement permits; and, (2) reconciling animal inventories of infected herds
                   over the duration of a herd plan with test charts and movement permits to
                   document that all animals were either depopulated or remain on the farm as
                   TB-free.

                   Agency Response

                   In its response, dated March 31, 2005, APHIS stated that they would enhance
                   VS policy to include reconciliation of animals within infected herds by
                   August 1, 2005.

                   OIG Position

                   We accept APHIS’ management decision. For final action APHIS needs to
                   provide OCFO with the updated VS policy that includes the reconciliation of
                   animals within infected herds.




Finding 2          All Animals Are Not Accounted for During the Annual Testing
                   Process in the Infected Zone

                   We analyzed the annual testing process in the infected zone and determined
                   that APHIS and MDA could not account for 105 of the 287 animals in four
                   herds. This occurred because APHIS procedures did not ensure that all
                   animals are annually tested or accounted for in the infected zone. APHIS and
                   MDA officials said that the animals had likely been slaughtered or died on
                   the farm, but could not provide documentary evidence, or assurance that
                   these animals were not diverted outside of the infected zone.

                   Through a Memorandum of Understanding (MOU) between APHIS and
                   MDA, dated March 26, 2002, MDA agreed to perform: (1) annual whole
                   herd testing of all herds in the infected zone; and (2) individual animal tests
                   within 60 days of movement of breeding livestock and sexually intact feeders
                   to another zone, unless going directly to slaughter. Animals may be moved
                   to slaughter without meeting these testing requirements.

USDA/OIG-A/33099-0005-Ch                                                                   Page 8
                                 In a separate sample of herds than those described in Finding 1, we reviewed:
                                 (1) two dairy herds from the infected zone (herd numbers B2253 and A5406,
                                 which were TB-tested in fiscal years 2001-2002 and 2002-2003 respectively);
                                 and (2) two cattle herds from the infected zone that were TB-tested in fiscal
                                 years 2003 and 2004 (herd numbers A4231 and A4831). For each of the four
                                 sampled herds, we obtained the TB test charts (VS Form 6-22) for two
                                 consecutive years, and prepared schedules listing the animal ID number for
                                 each animal tested in each year. We sorted and compared the animal ID
                                 numbers to reveal those animals that had been tested in the first year, but not
                                 the next.

                                 The following table summarizes the results of our review.

                                          HERD             NUMBER OF ANIMALS              UNACCOUNTED
                                         NUMBER            ON FIRST YEAR TEST            FOR IN YEAR TWO

                                          B2253                        90                         28
                                          A5406                       51                           1
                                          A4231                       61                          17
                                          A4831                       85                          59
                                         TOTALS                       287                         105

                                 We asked MDA and APHIS area office personnel to provide explanations for
                                 the animals not tested or accounted for in the second year. They stated that
                                 the unaccounted for animals had likely been sent to slaughter or had died on
                                 the farm. In addition, MDA personnel said that they did not have
                                 documentary evidence to support the unaccounted for animals because, prior
                                 to June 1, 2004, animals were not required to have movement permits if
                                 being sent directly to slaughter, and MDA has never required producers to
                                 report on-farm deaths.

                                 On June 1, 2004, APHIS and MDA adjusted their March 26,
                                 2002, Memorandum of Understanding to include a requirement that permits
                                 be obtained for all animal movements from premises within the infected
                                 zone.11 Also as of this date, MDA required all cattle in the infected zone to be
                                 tagged with the radio frequency ID tag prior to movement. Although APHIS
                                 officials stated that these adjustments would make it easier for veterinarians
                                 to account for all animals during annual TB-testing, they had not considered
                                 making reconciliations a requirement. APHIS currently performs herd
                                 reconciliations in Michigan, but only for accredited herds12, which at the time
                                 of our audit represented approximately 70 of Michigan’s 11,000 herds.

                                 We concluded that the tracking of animal movements for herds in the
                                 infected zone is integral to the bovine TB eradication program in Michigan.

11
     Memorandum of Understanding between MDA and APHIS-VS, Article 5, dated April 5, 2004.
12
     An accredited herd is one that has passed at least two consecutive annual TB tests, and is annually tested thereafter.
USDA/OIG-A/33099-0005-Ch                                                                                                 Page 9
                              APHIS officials agreed with the importance of tracking herds in the infected
                              zone, but said that they would need to determine whether they have enough
                              resources to perform reconciliations for the entire infected zone.

Recommendation 2

                              Establish procedures to reconcile herd inventories and account for all animals
                              during annual testing in Michigan’s infected zone.

                              Agency Response

                              In its response, dated March 31, 2005, APHIS agreed that the tracking of
                              animal movements for herds in the infected zone is integral to the bovine TB
                              eradication program in Michigan, and stated that it would establish
                              procedures to reconcile herd inventories in order to improve the
                              accountability of animals on retests. APHIS further stated that it would make
                              maximum use of its existing resources to reconcile cattle inventories. This
                              includes expanded use of its current system, radio frequency identification
                              system, and hand-held computers. In addition, APHIS intends to utilize
                              fiscal year 2005 funding to purchase additional electronic identification
                              equipment that will make the reconciliation process easier to conduct.

                              OIG Position

                              To reach management decision, APHIS needs to provide us with timeframes
                              that establish and implement procedures to reconcile herd inventories during
                              on-farm testing in Michigan’s infected zone.




Finding 3                     Herd Quarantines Were Released Prior to Completing Lab
                              Analysis

                              During its testing process, MDA released two herds in Michigan’s infected
                              zone from quarantine before the lab analysis was completed. Once the
                              definitive lab culture13 was completed, it indicated that these two herds were
                              infected with bovine TB. This occurred because APHIS’ rules considered
                              animals to be TB-free when the initial laboratory test (histopathology14)
                              discloses no evidence of bovine TB. APHIS had not taken added precautions
                              in the higher risk infected zone of Michigan to maintain herds under
                              quarantine until the definitive lab test (culture) was completed. As a result,

13
   The National Veterinary Services Laboratory in Ames, Iowa attempts to grow the bacteria in the laboratory from tissue
samples taken from the animal.
14
   Tissues collected during necropsy are prepared in a special solution, sliced thin, and placed on slides. The slides are
examined under a microscope for evidence of the disease.
USDA/OIG-A/33099-0005-Ch                                                                                           Page 10
                                22 animals were moved from one of the infected herds to a farm outside the
                                infected zone in Michigan, which could have spread the disease. However, in
                                this instance, APHIS was able to find and depopulate the 22 animals, and all
                                other animals at the recipient farm have tested negative for the disease.

                                APHIS rules state that, “If animals are slaughtered as suspects [from
                                comparative cervical test] but show no gross lesions, selected tissues are
                                found negative on histopathology, and a complete epidemiologic
                                investigation, including herd test of all eligible animals, fails to disclose
                                evidence of bovine TB or exposure thereto, upon concurrence of State and
                                Federal officials the herd may be considered free of bovine tuberculosis.” 15

                                We reviewed the documentation for the entire testing process for eight
                                infected herds. In one of these herds, the primary on-farm TB test (caudal
                                fold test) identified four suspect animals. A supplemental TB test
                                (comparative cervical test) was administered to these animals. The
                                supplemental test identified one problem animal. This animal was transported
                                to the Michigan State University (MSU) laboratory for necropsy and
                                histopathology. The necropsy and histopathology report from the MSU
                                laboratory disclosed that the animal showed no evidence of bovine TB.
                                Based on this, MDA released the quarantine on the herd. In accordance with
                                Federal and State procedures, MSU sent samples from the animal’s carcass to
                                the National Veterinary Services Laboratory (NVSL) in Ames, Iowa, to
                                perform the lab culture, which is the definitive test. After completing the
                                culture, NVSL reported that the animal was positive for bovine TB.

                                Based on our review of the permits for movement of restricted animals (VS
                                Forms 1-27), and discussion with the APHIS DTE, we learned that the herd
                                owner had shipped 22 of the 45 animals to another farm located outside the
                                infected zone. This occurred during the period that the quarantine was
                                released after the negative histopathology test was reported by MSU, but
                                before the lab culture results were received from NVSL. Through trace back
                                procedures, APHIS identified the location of the 22 animals and required that
                                those animals be depopulated. They also had to test all animals on this farm
                                and no others were found positive with TB.

                                The APHIS DTE said that their procedures have always been to release herds
                                from quarantines after a negative histopathology test. He stated that the
                                histopathology is generally very reliable, and that there was no scientific
                                basis for keeping the herd under quarantine after a negative histopathology
                                test. However, he also informed us of a second herd that was found positive
                                for TB in the culture after being released from quarantine based on a negative
                                histopathology. He said that these were the only two instances where this
                                happened.

15
     Bovine Tuberculosis Eradication, Uniform Methods and Rules, effective January 22, 1999, Part III.I.5.
USDA/OIG-A/33099-0005-Ch                                                                                     Page 11
                   Based on these two occurrences, we are recommending that APHIS revise its
                   policy for herds in the infected zone with animals having a positive response
                   (suspects) to the primary and supplemental on farm tuberculin tests, such that
                   the herd quarantine is maintained until the lab culture is completed. The
                   Director of APHIS’ National Center for Animal Health Programs –
                   Eradication and Surveillance Team agreed that herds in Michigan’s infected
                   zone should not be released from quarantine, or declared TB-free, until after
                   a negative culture is obtained from the necropsy because of the prevalence of
                   bovine TB in that area of the State.

Recommendation 3

                   Revise the policy to maintain quarantines on herds with animals (suspects)
                   having a positive response to the primary and supplemental on farm
                   tuberculin tests in Michigan’s infected zone, until the lab culture is
                   completed.

                   Agency Response

                   APHIS stated that their revised Bovine Tuberculosis Eradication Uniform
                   Methods and Rules, effective January 1, 2005, required herds with suspects
                   that are sent to slaughter remain under quarantine until the histopathology
                   and lab culture are completed. APHIS also stated that they would be adding
                   clarifying language to the tuberculosis UM&R and/or policy memorandums
                   to emphasize this recommendation, and to define when deviations to the
                   policy are allowed.

                   OIG Position

                   To reach management decision, APHIS needs to provide us with timeframes
                   for issuing the cited clarifications.




USDA/OIG-A/33099-0005-Ch                                                                Page 12
Section 2: Bovine Tuberculosis in Wildlife




Finding 4                        Prevalence of Bovine Tuberculosis in Wildlife Is Not Incorporated
                                 in APHIS’ Classification Standards

                                 APHIS’ current bovine TB classification standards do not include a
                                 measurement of bovine TB in wildlife in Michigan’s infected zone. Bovine
                                 TB is contagious, and its presence in Michigan wildlife has been directly
                                 linked to the TB outbreaks in livestock, leading the Secretary of Agriculture
                                 to declare an emergency16 in October 2000. APHIS-VS officials stated that
                                 since they do not have authority over wildlife, their classification system is
                                 solely based on livestock infection levels. However, APHIS-VS is
                                 responsible for protecting livestock from the spread of TB, and it does assign
                                 and control State/zone status, such that it could incorporate wildlife
                                 prevalence rates into its classification standards. Without doing so, it is
                                 possible that Michigan can improve the classification status for its infected
                                 zone without reducing TB in wildlife. Such a change could result in a
                                 reduction in vigilance and disease detection efforts because significantly less
                                 testing occurs at the next classification status designation.

                                 States are subject to an annual review by the APHIS Administrator in order to
                                 retain their bovine TB classification status designation. The classification of
                                 a State or a particular zone within a State determines the livestock testing
                                 requirements that must be met before animals can be moved out of the
                                 affected area. Michigan is unique in that it is the only State with two zones,
                                 modified accredited and modified accredited advanced. Under the current
                                 classification system, if for each of the two most recent years Michigan’s
                                 modified accredited (infected) zone does not have more than three infected
                                 herds, the zone could achieve the less restrictive status of modified accredited
                                 advanced. In fiscal year 2004, Michigan reported three TB positive cattle
                                 herds in the infected zone, thus it is possible, if this rate of incidence
                                 continues or decreases, that the infected zone would be eligible to upgrade its
                                 status after fiscal year 2005.

                                 There is a significant difference in testing requirements between Michigan’s
                                 two zones. Michigan currently tests all livestock in the modified accredited
                                 zone annually (which represents over 1,000 herds). Furthermore, a negative
                                 test within the last 60 days is required prior to moving any cattle in or out of
                                 the modified accredited zone. Herds in the remainder of the State (the
                                 modified accredited advanced zone) are only subject to random testing,
                                 where a statistical selection of at least 1,800 herds (from over 10,000 herds)
16
     Secretary of Agriculture’s emergency declaration is discussed further in the Background section of this report.
USDA/OIG-A/33099-0005-Ch                                                                                               Page 13
                             are tested over a 2-year period. A negative TB test is not required within
                             60 days prior to moving cattle within the modified accredited advanced zone.

                             The presence of bovine TB in Michigan wildlife has been directly linked to
                             TB outbreaks in livestock. Scientific analysis (DNA fingerprinting) identified
                             that the same strain of bovine TB affecting Michigan’s wildlife was affecting
                             its livestock. Based on this scientific analysis, the Secretary of Agriculture
                             declared an emergency in October 2000 after eight Michigan cattle herds
                             were infected with bovine TB. Since that time, 24 additional cattle herds in
                             Michigan have become infected with bovine TB.

                             An APHIS-VS strategic goal is to eradicate bovine TB, and its strategic plan
                             refers to the wildlife problem as one of the “most significant issues” facing its
                             eradication program. Accordingly, VS participates in a cooperative approach
                             to address the wildlife problem with MDA, Michigan Departments of Natural
                             Resources and Community Health, Michigan State University and APHIS’
                             Wildlife Services. In 2003, this cooperative effort led to Michigan recording
                             its lowest level of infected deer since 1995.

                             Despite the harvesting of thousands of deer every year, numerous cases of
                             infection continue to be detected. Prior to 2003, infection rates had not
                             declined, but remained static. However in 2003, only 32 wild deer tested
                             positive for bovine TB in the infected zone, of the 17,301 voluntarily
                             submitted for testing throughout the State. The State recorded 51 positive
                             cases in 2002, and for the period 1995-2002 there were 447 positive-testing
                             deer (an average of 56 per year). Since 1996, 42 non-cervids including black
                             bears, coyotes, red fox, opossum and raccoon have also tested positive for
                             bovine TB. In Michigan, two humans have tested positive for this particular
                             DNA strain of bovine TB. Michigan’s TB eradication activities report for
                             200317 quotes a source that states “with continued intervention and
                             population reduction of deer population, bovine TB should be down to an
                             undetectable level in white-tailed deer by 2012”. In spite of this, Michigan
                             could seek to upgrade the infected zone’s status to modified accredited
                             advanced, if there are no more than three positive livestock herds in 2005,
                             even though the disease will not have been eradicated and could still infect
                             cattle. The modified accredited advanced zone has less testing requirements
                             and fewer restrictions on cattle movements.

                             In response to this concern, VS officials agreed that bovine TB in wildlife is a
                             problem, but noted their authority was limited to only livestock. However,
                             because APHIS does control the criteria for State and zone status and it
                             approves the related State testing plans, we believe APHIS can better reflect
                             the overall eradication effort, and control of the disease, if it were to include

17
 Michigan Bovine Tuberculosis Eradication Project Activities Report 2003, page 22, quotes Dynamics of Bovine TB in
Wild White-tailed Deer in Michigan report.
USDA/OIG-A/33099-0005-Ch                                                                                    Page 14
                   wildlife disease measurement as a classification factor for Michigan’s
                   infected zone. Testing in the infected zone is directly linked to its modified
                   accredited status. However, status in the infected zone is dictated only by
                   livestock infections, even though over 30 deer have tested positive in each
                   year since 1995. Without an adjustment to classification system, further
                   transmission of bovine TB from wildlife to livestock will remain as a high
                   risk, but the current level of controls and testing may not be in place to timely
                   detect and eradicate any potential new cases.

Recommendation 4

                   Revise the classification standards for Michigan’s infected zone to include
                   bovine TB in the wildlife population by incorporating wildlife measurements
                   as a status-determining factor.

                   Agency Response

                   APHIS stated that the new provisions in their revised Bovine TB Eradication
                   Uniform Methods and Rules (UM&R), implemented on January 1, 2005, will
                   result in the revision of classification standards for Michigan’s infected zone
                   by requiring provisions to reduce the prevalence of TB in wildlife be
                   enforced within a realistic timeframe. It also requires that the prevalence of
                   TB in the wild cervid population be determined annually. They further stated
                   that the revision requires free-ranging cervid surveillance in zones like
                   Michigan’s infected zone, however there is not a target prevalence specified.
                   APHIS stated that they plan to include a requirement that such surveillance
                   be adequate to at least detect a prevalence of 2 percent in the free-ranging
                   cervid population with 95 percent confidence. APHIS stated that these
                   measures must be in place and followed before any change in testing
                   requirements for cattle in the infected zone of Michigan will be considered.

                   OIG Position

                   To reach management decision, APHIS needs to provide us with its plan,
                   including timeframes, for revising the classification standards for Michigan’s
                   infected zone to include bovine TB in wildlife as a status-determining factor.
                   Status is currently dictated by livestock infections only, either the number of
                   positive herds or as a calculated percentage. By including wildlife as a
                   factor, status will be determined by the number of positive herds, the number
                   of infected wildlife and/or a combination of the two. As noted in our
                   Finding, under the current status structure, Michigan could seek to upgrade
                   the infected zone’s status to modified accredited advanced, if there are no
                   more than three positive livestock herds in 2005. Potential new wording, for
                   example, may include a provision that states no more than three positive
                   livestock herds, or five positive wildlife cases (cervid or other), and a mixed
                   factor combining livestock herds with wildlife.
USDA/OIG-A/33099-0005-Ch                                                                   Page 15
Scope and Methodology
                   We performed our audit fieldwork from April through October 2004, and
                   covered the period fiscal years 1999 through 2004. The audit was conducted
                   at the: (1) APHIS National Office in Riverdale, MD; (2) APHIS area office in
                   East Lansing, MI; and (3) Michigan Department of Agriculture (MDA) in
                   Lansing and Atlanta, MI. We judgmentally selected the State of Michigan,
                   one of the four States affected by bovine TB, for review. Michigan was
                   selected because it had the highest prevalence of bovine TB in the United
                   States.

                   We conducted a test to determine whether MDA was meeting the
                   requirement to annually test all herds in the infected zone. We reviewed
                   records for 339 of the 400 (85 percent) herds that were to be tested by July
                   28, 2004, and found that the herds were tested as required.

                   In order to test whether whole herd testing was being accomplished, we
                   initially selected 2 of 184 dairy herds in the infected zone, as of May 17,
                   2004, and obtained the TB-test charts for 2001 through 2003. After finding
                   that all animals were not tested or accounted for in consecutive years, we
                   expanded our analysis to include two beef herds that were tested in 2003 and
                   2004.

                   We also tested the controls over animals in infected herds, by selecting a
                   judgmental sample of 8 (25 percent) of the 32 cattle herds infected with
                   bovine TB in Michigan during the period fiscal year 1999 through fiscal year
                   2004, to verify that all animals were depopulated or under herd plans. We
                   selected the sample to include dairy and beef herds from each of the original
                   four infected counties, plus two additional counties.

                   To accomplish our audit objectives we:

                    •   Interviewed APHIS National Office, APHIS area office, and MDA
                        officials;

                    •   Reviewed APHIS and the State of Michigan regulations, policies, and
                        procedures related to the BTEP;

                    •   Reviewed memoranda of understanding between MDA and APHIS;

                    •   Reviewed annual and monthly reports for TB-affected States and non-
                        affected States, as maintained at the APHIS National Office; and,



USDA/OIG-A/33099-0005-Ch                                                                Page 16
                    •   Examined documentation from APHIS’ and MDA’s files and automated
                        systems regarding the testing and movement of animals.

                    The audit was conducted in accordance with Generally Accepted
                    Government Auditing Standards.




USDA/OIG-A/33099-0005-Ch                                                         Page 17
Exhibit A – Infected (Modified Accredited) Zone, as of April 19, 2004
                                                                   Exhibit A – Page 1 of 1




USDA/OIG-A/33099-0005-Ch                                                    Page 18
Exhibit B – Agency Response to the Draft Report
                                                  Exhibit B – Page 1 of 4




USDA/OIG-A/33099-0005-Ch                                       Page 19
Exhibit B – Agency Response to the Draft Report
                                                  Exhibit B – Page 2 of 4




USDA/OIG-A/33099-0005-Ch                                       Page 20
Exhibit B – Agency Response to the Draft Report
                                                  Exhibit B – Page 3 of 4




USDA/OIG-A/33099-0005-Ch                                       Page 21
Exhibit B – Agency Response to the Draft Report
                                                  Exhibit B – Page 4 of 4




USDA/OIG-A/33099-0005-Ch                                       Page 22
Informational copies of this report have been distributed to:

Administrator, APHIS
    ATTN: Agency Liaison Officer                                9
U.S. Government Accountability Office                           1
Office of the Chief Financial Officer
  Director, Planning and Accountability Division                1
Office of Management and Budget                                 1
